DOE/IG-0482




   INSPECTION                          SUMMARY REPORT ON
     REPORT                         ALLEGATIONS CONCERNING
                                  THE DEPARTMENT OF ENERGY’S
                                 SITE SAFEGUARDS AND SECURITY
                                        PLANNING PROCESS




                                        SEPTEMBER 2000




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
       OFFICE OF INSPECTIONS
                                    Department of Energy
                                         Washington, DC 20585
•

                                          September 28, 2000

MEMORANDUM FOR THE SECRETARY

FROM:          Gregory H. Friedman /s/
               Inspector General

SUBJECT:       INFORMATION: Summary Report on “Allegations Concerning
               the Department of Energy’s Site Safeguards and Security Planning Process”
               DOE/IG-0482

BACKGROUND

The Director, Office of Security and Emergency Operations provided the Office of Inspector
General with a letter he had received which raised allegations of serious improprieties in the
Department of Energy’s Site Safeguards and Security Planning (SSSP) process. Specifically, the
letter included allegations that a number of people within the Department were “lying in the
reporting of the actual status of security” at the Department’s most important nuclear sites, and
that a contractor’s findings under the SSSP Quality Assurance (QA) process were either ignored
or not acted upon in a timely manner. In addition, it was alleged that “illegal” retaliation was
taken against those who were trying to correct the Department’s security problems through SSSP
reviews or through assistance to a special assistant to the Secretary on Department security
issues. The Office of Inspector General initiated an inspection to evaluate these issues.

RESULTS OF INSPECTION

While the inspection disclosed significant problems in the SSSP process as it was functioning at
the time referred to in the allegations, the evidence did not support the principal points raised in
the letter. Specifically, the inspection findings did not support the allegations that Department
officials:

•   lied in the reporting of the actual status of security at the Department’s most
    important nuclear sites; or

•   suffered retaliation for their part in the review of SSSPs, or for assisting a special
    assistant to the Secretary of Energy.

We did find that an employee of a support services contractor believed that an Office of
Safeguards and Security program manager threatened him with a reduction in contract
activity for his role in supporting the SSSP QA process and for assisting the special
assistant to the Secretary. However, the program manager denied making such threats.
We did identify significant problems in the manner in which SSSPs were reviewed and
SSSP QA issues were closed during the period referred to in the allegations.
Specifically:

•   There were substantial differences in what was being reported as the actual status of
    security at Department sites by the SSSP QA function, and what was being reported
    by the cognizant sites.

•   Final Departmental decisions on how to address the SSSP QA issues were often
    complicated or delayed by disagreements between field and Headquarters elements
    over fundamental questions such as interpretation of the Design Basis Threat,
    adversary capabilities, and the assumptions related to worst case scenarios. These
    relationships were often so acrimonious as to threaten the effectiveness of the SSSP
    process.

•   Since there was no process to resolve SSSP QA issues in coordination with the SSSP
    QA function, certain “Risk” issues remained unresolved at the SSSP QA level or
    were not fully evaluated.

The inspection disclosed that the allegations primarily concerned an SSSP process that has been
phased out by the Department. The Office of Security and Emergency Operations is
implementing a new process that is intended to address many of the problems that developed
during past reviews of SSSPs. We concluded that the Department’s restructuring of the SSSP
process, if implemented and executed as planned, has the potential for resolving disagreements
over the fundamental questions that affect SSSP “Risk” determinations.

This report includes several recommendations for the Director of the Office of Security and
Emergency Operations: most notably, to establish a policy on what actions are required once
high and moderate risks are identified through the SSSP process; and, to ensure that a dispute
resolution process resolves disagreements that occur.

MANAGEMENT REACTION

The Director of the Office of Security and Emergency Operations stated that he had reviewed the
Draft Report, and concurred. The Director stated that the conclusions offered in the Draft Report
were appropriate. Although the Director has not committed to implementing the inspection
recommendations, he stated that he would review the relevance of the recommendations in light
of other policy initiatives currently underway to ensure that they are complementary. He also
stated that if it is determined that the recommendations are appropriate and represent added value
to the Site Safeguards and Security Planning Process, they will be implemented.

Attachment




                                                2
cc: Deputy Secretary
    Under Secretary for Nuclear Security/Administrator for National Security
    Under Secretary for Energy, Science and Environment
    Deputy Administrator for Defense Programs
    Director, Office of Security and Emergency Operations
    Director, Office of Security Affairs
    Director, Office of Safeguards and Security
    Director, Office of Defense Nuclear Security
    Assistant Secretary for Environmental Management
    Manager, Albuquerque Operations Office
    Manager, Rocky Flats Field Office
    Director, Transportation Safeguards Division
    Director, Office of Security Support, Defense Programs




                                              3
SUMMARY REPORT ON ALLEGATIONS CONCERNING
THE DEPARTMENT OF ENERGY’S SITE SAFEGUARDS AND
SECURITY PLANNING PROCESS


TABLE OF
CONTENTS



              Overview


              Introduction and Objective……………………………… 1

              Observations and Conclusions………………………… 2

                Reporting of the Actual Status of Security…………… 2

                Actions to Evaluate and Resolve
                 High Risk Concerns…………………………………... 2

                No Evidence of “Dumbing” Down the
                 SSSP Process……………………………………….... 3

                Retaliation…………………………………………….…                 4

              Recommendations…………………………………….….                 6

              Management and Inspector Comments…………..…..       7

              Appendices

              A. Scope and Methodology……………………………….            8

              B. Background………………………………………….…. 10

              C. Definitions…………………………………………….… 12
Overview
INTRODUCTION    In January 2000, the Office of Inspector General received an
AND OBJECTIVE   allegation that there were serious improprieties in the Department’s
                Site Safeguards and Security Planning (SSSP) process.
                Specifically, it was alleged that a number of people within the
                Department were “lying in the reporting of the actual status of
                security” at the Department’s most important nuclear sites.
                Specific allegations were made regarding the Rocky Flats
                Environmental and Technology Site (RFETS), the Transportation
                Safeguards Division (TSD), and Los Alamos National Laboratory
                (LANL). In addition, it was alleged that “illegal” retaliation was
                taken against those who were trying to correct the Department’s
                security problems through SSSP reviews or through assistance to a
                special assistant to the Secretary on Department security issues.

                Based on these allegations, the Office of Inspector General
                initiated an inspection to determine if:

                •   officials within the Department were lying in the reporting of
                    the actual status of security at the Department’s most important
                    nuclear sites;

                •   appropriate actions were taken to evaluate and resolve High
                    Risk concerns;

                •   there was a systematic pattern of “dumbing” down the SSSP
                    process; and,

                •   there has been retaliation against those who were trying to
                    correct security problems.

                As noted above, this inspection focused on the manner in which
                the contractor’s concerns were addressed by Department security
                officials once they were raised. The issue of whether or not certain
                risk conditions actually existed at Department sites, as alleged, was
                beyond the scope of our review.




Page 1                         Summary Report on Allegations Concerning
                               the Department of Energy’s Site Safeguards
                               and Security Planning Process
OBSERVATIONS AND
CONCLUSIONS
REPORTING OF THE   The Office of Inspector General found no evidence to support the
ACTUAL STATUS OF   allegation that Department officials lied in the reporting of the
SECURITY           actual status of security at RFETS, TSD, and LANL. Contrary to
                   this allegation, the results of our inspection revealed that
                   Department officials took steps to assure that many of the SSSP
                   QA issues reported by the contractor and the QA function were
                   briefed at the highest levels of Department management.

                   However, a comparison of the SSSP QA analyses prepared by the
                   contractor, and SSSP correspondence and documentation prepared
                   and approved by the Department’s Field and Headquarters
                   Program Offices, did reveal substantial differences in what was
                   being reported as the actual status of security at these three sites.
                   We found that these differences were the result of significant, and,
                   at times, bitter disagreements over the underlying basis of the
                   SSSP QA issues raised by the contractor. The contractor’s QA
                   concerns were not well received at the Field Office level, the
                   Program Office level, or by certain elements of the Office of
                   Safeguards and Security. In several instances, the QA analyses
                   performed by the contractor used different assumptions than had
                   been used by the sites to develop their draft SSSPs, creating
                   contention over the contractor’s determinations of risk. The risk
                   conditions identified and reported by the contractor were not
                   universally accepted within the Office of Safeguards and Security
                   or by the affected field sites and Program Offices.

ACTIONS TO         Field and Headquarters elements considered and reviewed the QA
EVALUATE AND       issues identified by the contractor and the QA function. However,
RESOLVE HIGH       decisions on how to address the QA security concerns were often
RISK CONCERNS      complicated or delayed by disagreements over fundamental
                   questions such as interpretation of the Design Basis Threat,
                   adversary capabilities, and the assumptions that went into the
                   identification, modeling, and testing of worst case scenarios. For
                   example:

                   •   The contractor and the QA function reported a High Risk
                       concern at a RFETS facility in March 1997. The condition
                       underlying the High Risk concern was not resolved at the QA
                       level for nearly two and one-half years, and the corrective
                       actions taken in October 1999 were still disputed by the site
                       with regard to the necessity for these actions.

                   Many of the QA issues were briefed within the highest levels of
                   Department management, yet we could not identify a systematic
                   process for resolving and closing the QA issues in coordination
                   with the QA function. As a result, certain issues remained


Page 2                                              Observations and Conclusions
                   unresolved at the QA level or were not fully evaluated. For
                   example:

                   •   The contractor and the QA function reported two High Risk
                       scenarios involving TSD operations during its review of TSD’s
                       draft September 1998 SSSP. However, the High Risk label
                       was removed from the discussions on one of these issues, and
                       the issue of High Risk in this case was never resolved with the
                       QA function. The Office of Safeguards and Security and TSD
                       did agree to address many of the underlying security concerns
                       that contributed to the QA assertion of High Risk.

                   •   During a limited review of LANL’s draft 1999 SSSP, the
                       contractor and the QA function reported that SNM was not at
                       low risk at a LANL facility. However, the issues identified in
                       the contractor’s final SSSP QA analysis were not forwarded to
                       the Albuquerque Operations Office or the site for evaluation
                       prior to SSSP concurrence by the Office of Security Affairs.

NO EVIDENCE OF     We concluded that the “new” SSSP procedures being implemented
“DUMBING” DOWN     by the Office of Security and Emergency Operations did not reflect
THE SSSP PROCESS   a systematic pattern of “dumbing” down the SSSP process. In fact,
                   we concluded that the new SSSP procedures have the potential for
                   significantly enhancing the SSSP process. Nevertheless, given the
                   Department’s past experiences in the security area, strong
                   management involvement will be needed to assure that the “new”
                   process achieves its potential. The Secretary of Energy assigned
                   this role to the Director, Office of Security and Emergency
                   Operations, in June 1999, and stated that the new Director has “the
                   experience, expertise and determination to change the security
                   culture at DOE.” This role will have to be re-evaluated in light of
                   the establishment of the National Nuclear Security Administration.

                   The Department began restructuring the SSSP process in May
                   1999. The Office of Safeguards and Security believed that the
                   “old” SSSP QA process caused a great deal of contention when
                   Headquarters Offices performed “a post-facto” verification and
                   validation exercise using tools or approaches different than those
                   used to perform the initial risk assessment by the sites. In May
                   1999, the Under Secretary directed that an SSSP Working Group
                   be formed to provide “new” detailed procedures for the
                   development and approval of SSSPs. The most significant changes
                   from the “old” to the “new” SSSP process was the introduction of
                   a “participatory approach” to the preparation of the SSSPs. The
                   “participatory approach” involves field elements and various
                   Headquarters offices in the SSSP development from the beginning,



Page 3                                             Observations and Conclusions
                                  eliminating the need for a “post-facto” QA function. Under the
                                  “participatory approach,” agreement is to be reached on the Design
                                  Basis Threat, adversary capabilities, and the assumptions that go
                                  into the identification, modeling, and testing of worst case
                                  scenarios early in the process, thereby avoiding the introduction of
                                  different interpretations and assumptions at the end.

                                  The “new” process also introduced a different approach to “Risk.”
                                  Under the new process, “risk avoidance” was replaced by the
                                  concept of “risk management.” As described to us, the “new”
                                  process emphasizes the necessity of a common, up front agreement
                                  on factors that are absolutely critical to the structure of the
                                  protection systems designed to counter adversary acts. We
                                  concluded that the “new” process must not only move the
                                  discussion on the Design Basis Threat, adversary capabilities, and
                                  worst case scenarios to the beginning of the SSSP process, but
                                  must also provide for the resolution of disputes on these issues
                                  when they occur. We also concluded that the “new” process can
                                  be most effective if the “Risk” determinations are driven by a
                                  consensus within the Department on the interpretation of the
                                  Design Basis Threat, adversary capabilities, and worst case
                                  scenarios rather than based on the preferences of a single site
                                  and/or a Program Office. The Director of the Office of Safeguards
                                  and Security told us that “this will be the case.”

                                  The inspection disclosed that the “new” process appears to be
                                  evolving in a way that will address disputes and the factors
                                  affecting “Risk.” For example, a newly formed Threat Assessment
                                  Quality Panel has assumed responsibility for matters relating to the
                                  Design Basis Threat, and any issues not resolved by this panel will
                                  be raised to the Security Management Board. 1 In addition, the
                                  Threat Assessment Quality Panel has recently issued guidance to
                                  Department sites regarding the applicable adversary capabilities
                                  under the specific elements of the Design Basis Threat.

                                  The “new” process was first used in April 2000 for the 2000 TSD
                                  SSSP. We have not evaluated the effectiveness of this process.

RETALIATION                       We found no evidence of retaliation as alleged with respect to
                                  Department officials. Interviews of Department officials who were
                                  alleged to have been retaliated against for their part in the review
                                  of SSSPs, or for assisting a special assistant to the Secretary of
                                  Energy on security issues, did not support the allegation of
                                  retaliation. However, one support services contractor believed that

1
  The Security Management Board was abolished in October 1999, and a new organization to take over its
responsibilities has not been established.


Page 4                                                                Observations and Conclusions
         an OSS program manager threatened him with a reduction in
         contract activity for his role in supporting the SSSP QA process
         and for assisting the special assistant. The contractor said that he
         did not receive any contract work in the area of field assistance
         after the alleged threat was made, and that he viewed the
         elimination of his field assistance activities as retaliation.
         However, the OSS program manager denied any retaliation and
         said that he had no opportunity to provide contract work to this
         individual during the period in question. Subsequently, the
         contractor received other contract work, including work from the
         Director, Office of Security and Emergency Operations, and did
         not seek to formally address any concerns about alleged retaliation.

         We also found no evidence that another support services contractor
         was retaliated against. The contractor offered a reduction in
         billable hours as evidence that the contractor was being retaliated
         against. However, while some Office of Safeguards and Security
         officials expressed dissatisfaction with the contractor, the use of
         the contractor by the Office of Safeguards and Security has
         continued. Office of Safeguards and Security records show that
         the contractor’s billable hours had dropped off significantly in one
         area, but a review of the contractor’s total direct productive labor
         hours over the past year showed only a slight decline in the overall
         use of the contractor by the Office of Safeguards and Security.

         The evidence shows that the Department’s shift from the “old” to
         the “new” SSSP process, and not retaliation on the part of any OSS
         official, more likely than not was the cause of this decline. The
         shift from the “old” to the “new” SSSP process nearly eliminated
         this company as a support services contractor. However, the
         contractor’s direct productive labor hours have been sustained
         close to previous levels by providing support in other security
         areas.




Page 5                                   Observations and Conclusions
Recommendations   We recommend that the Director of the Office of Security and
                  Emergency Operations:

                  1. Establish policy on what actions are required once High Risk
                     and Moderate Risk are identified through the SSSP process,
                     including the resolution of High Risk and Moderate Risk issues
                     within specific timeframes; and the consideration for
                     compensatory measures, formal acceptance of risk, and
                     mitigation of risk through operational changes.

                  2. Ensure that a dispute resolution process is incorporated within
                     the responsibilities of the Threat Assessment Quality Panel and
                     the successor organization to the Security Management Board
                     so that disagreements on the interpretation of the Design Basis
                     Threat, adversary capabilities, and the assumptions that go into
                     the identification, modeling, and testing of worst case scenarios
                     are addressed at the highest level of management.

                  3. This recommendation is classified.

                  4. Ensure that TSD validates the Special Response Force through
                     the use of performance testing of the worst case scenarios.

                  5. Evaluate TSD’s performance testing program and assure that
                     all performance tests used to validate their SSSPs (a) are not
                     encumbered by training priorities, (b) constitute legitimate
                     force-on-force activities without coaching by
                     instructors/controller, and (c) provide results that are
                     conclusive in terms of measuring the ability of Special Agents
                     to perform in response to an actual attack.

                  6. Ensure that TSD validates all other corrective actions that were
                     identified on the “TSD Interim Disposition of NN Comments”
                     matrix.

                  7. Ensure that TSD identifies a site suitable for conducting force-
                     on-force exercises for worst case scenarios.

                  8. Evaluate the concern that a “Super Adversary” is created by the
                     application of the Design Basis Threat to worst case scenarios,
                     and determine what action is needed to disseminate more
                     prescriptive policy on adversary capabilities so that the threat
                     and adversary attributes contained in the Design Basis Threat
                     are clear, concise and universally understood by the Office of
                     Security Affairs, Office of Independent Oversight and




Page 6                                                         Recommendations
                Performance Assurance, the Program Offices, and all affected
                field elements.

             It should be noted that certain recommendations originally sent to
             the Director, Office of Security and Emergency Operations for
             comment are now the responsibility of the Under Secretary for
             Nuclear Security/Administrator for National Security.

MANAGEMENT   Officials from the Office of Security and Emergency Operations
COMMENTS     provided several comments to the initial Draft Report dated
             July 21, 2000. Appropriate changes were made based on these
             comments, and a second draft report was issued on
             August 31, 2000.

             In comments provided to the second Draft Report, the Director of
             the Office of Security and Emergency Operations stated that he
             had reviewed the Draft Report, and concurred. The Director stated
             that the conclusions offered in the Draft Report were appropriate,
             and that it appeared that most of the comments provided by
             members of the Office of Security and Emergency Operations on
             the initial Draft Report had been incorporated into this version.

             While the Director did not commit to implementing the
             recommendations, he stated that he would review the relevance of
             the recommendations in light of other policy initiatives currently
             underway to ensure that they are complementary. He also stated
             that if it is determined that the recommendations are appropriate
             and represent added value to the Site Safeguards and Security
             Planning Process, they will be implemented. In addition, the
             Director stated that he would forward to the National Nuclear
             Security Administration, Office of Defense Nuclear Security, those
             recommendations that fall under their purview.

INSPECTOR    Since the Director of the Office of Security and Emergency
COMMENTS     Operations did not specifically concur or non-concur with the
             report recommendations, we believe it is critical that the Director’s
             initial submission under the Department’s Audit Report Tracking
             System (DARTS) clearly defines the rational for determining that
             any of the recommended actions are not appropriate or do not
             represent added value to the Site Safeguards and Security Planning
             Process. In addition, the Office of Security and Emergency
             Operations, in coordination with the National Nuclear Security
             Administration, should clearly define their plan for corrective
             actions in their initial submission under DARTS.




Page 7                                   Management/Inspector Comments
Appendix A
SCOPE AND     While reviewing the allegations discussed in this report, we
METHODOLOGY   evaluated:

              •   The reporting of the status of security at RFETS, TSD, and
                  LANL through the SSSP process.

              •   The appropriateness of the actions taken by Department
                  management to evaluate and resolve High Risk concerns
                  identified by the contractor and the SSSP QA function.

              •   The appropriateness of the actions taken by Department
                  management to evaluate and resolve other security weaknesses
                  identified by the contractor.

              •   Changes to the SSSP process that eliminated the post-facto
                  SSSP QA reviews.

              •   The issue of retaliation as it related to certain Department and
                  contractor employees who were involved in the SSSP QA
                  process.

              As part of our review, we interviewed officials from the contractor
              organization, Los Alamos National Laboratory, Sandia National
              Laboratories, Pacific Northwest National Laboratory, and
              Department officials from the Office of Security and Emergency
              Operations, the Office of Safeguards and Security, the Office of
              Security Affairs, the Office of Defense Programs, the Office of
              Environmental Management, TSD, and the Albuquerque
              Operations Office.

              In addition, we also reviewed documentation relating to the SSSP
              QA process, including: (1) SSSPs for TSD and LANL; (2) SSSP
              QA reports, including ALPHA Reports, Physical Security Systems
              Reports, an Integrated Report for TSD, and JTS Reports; (3) a
              Format and Content Guide for SSSPs; (4) Acceptance Criteria and
              Review Guide for SSSPs; (5) a Final Report of the Design Basis
              Threat Working Group and the SSSP Working Group; (6) the
              SSSP Rollout 2000 Workshop Report and the Tool Box
              Evaluation; (7) the Vulnerability Assessment Program Workshop
              Report; and (8) applicable Department of Energy Orders and
              Directives regarding security at Department sites.




Page 8                                                Scope and Methodology
         This inspection was performed between January and June 2000.
         This inspection was conducted in accordance with the “Quality
         Standards for Inspection” issued by the President’s Council on
         Integrity and Efficiency.




Page 9                                        Scope and Methodology
Appendix B
BACKGROUND   The SSSP describes safeguards and security programs and
             vulnerability and risk analysis at applicable sites. The SSSP is the
             primary instrument that the Department’s Operations Office
             Managers use to certify to the Secretary of Energy the accuracy of
             risk and the measures used to assure that the public, employees,
             environment, and national assets are adequately protected. The
             SSSP is approved by Heads of Field Elements and concurred in by
             the cognizant Program Office and the Office of Security Affairs.

             All SSSPs are to be certified annually as being current and valid,
             and are to be updated and approved at least once every five years
             unless a more frequent cycle is warranted. The Operations
             Office/Field Office Manager, in consultation with the Program
             Offices, Office of Independent Oversight and Performance
             Assurance, and the Office of Security Affairs, can direct that the
             SSSP be updated to reflect evolving threats and changes in a site’s
             security posture.

             In 1997, the Office of Nonproliferation and National Security
             began what they called “a rigorous and disciplined” QA process as
             part of the “review and verification” of the Department’s SSSPs
             (referred to as the SSSP QA process). The Office of Safeguards
             and Security had found significant deficiencies in reporting “Risk,”
             often due to the characterization of the Design Basis Threat and
             scenarios that did not stress the worst case. During this period, the
             Office of Safeguards and Security assigned the contractor the task
             of supporting the SSSP QA effort.

             In an August 21, 1997, memorandum to various OSS Division
             Directors, the Director of OSS issued criteria and methodology that
             would be employed in the reviews of SSSPs. The purpose of this
             criteria and methodology was to address systemic SSSP
             verification issues that had arisen during prior reviews.

             The SSSP QA process employed the use of three specific tools for
             review and verification of the Department’s SSSPs. These
             included:

             •   Joint Tactical Simulation (JTS) - an interactive, entity-level
                 conflict simulation modeling tool;
             •   Advanced Logic Protection Heuristic Analysis (ALPHA) - a
                 vulnerability assessment tool; and,
             •   Physical Security Systems Reviews (PSSRs) - examinations,
                 tests, and evaluations of the effectiveness of physical security
                 systems.



Page 10                                                             Background
          In a November 4, 1998, memorandum to the OSS Acting Director,
          Field Operations Division, the OSS Director stated that he
          considered the reviews of SSSPs to be a “critical principle”
          function of OSS. The Director stated that the three “primary tools”
          used, ALPHA, JTS, and PSSRs, must be carefully integrated and
          appropriately documented for each SSSP. The Director also stated
          that it was expected that each of these tools would be used to
          evaluate all SSSPs unless timely equivalent information existed.
          The Director recognized that a “constructive tension condition”
          existed between the Safeguards and Security office responsible for
          the SSSP QA process and the Safeguards and Security office
          responsible for field assistance and expediting OSS concurrence
          with SSSP’s. However, he stated that these checks and balances
          would result in a more effective safeguards and security program.

          As part of its support role associated with the SSSP QA effort, the
          contractor reported that High Risk security conditions existed at
          the Rocky Flats Environmental Technology Site, and the
          Transportation Safeguards Division. Further, with regard to Los
          Alamos National Laboratory, the contractor concluded that “there
          is insufficient evidence to provide reasonable assurance that SNM
          [Special Nuclear Material] is protected to the standard required by
          the Department. . . . That is, SNM is not at low risk . . . .”

          The contractor alleged that findings at these three sites were either
          ignored, or not acted upon in a timely manner. For example, it was
          alleged that the contractor identified High Risk at RFETS in March
          1997, but no action was taken to address the High Risk condition
          until November 1999. Also, the contractor allegedly identified
          High Risk conditions involving TSD operations in the fall of 1998
          that were never addressed, and that allegedly remain today. In
          reviewing the LANL SSSP in November 1999, the contractor
          allegedly found major problems with the ability of the protective
          force to deal with worst case scenarios that were never addressed,
          and also allegedly remain today. The contractor also alleged that
          the SSSP QA review process is currently being restructured, and
          that documents for this effort show a systematic pattern of
          “dumbing” down the SSSP process. The contractor explained that
          the SSSP QA process is being subverted so that SSSP development
          becomes a joint Field/Headquarters function with no independent
          review.




Page 11                                                         Background
Appendix C
                                       DEFINITIONS


Risk                         Risk is defined as Low, Moderate, or High. Risk ratings are
                             determined by evaluating the effectiveness of the protection system
                             against events such as the threat of the theft of Special Nuclear
                             Material (SNM), weapons, and weapons components. Department
                             policy states that Low Risk Ratings are acceptable.

Design Basis Threat          The Design Basis Threat is a postulated threat used to design
                             protective forces and security systems for the guarding of nuclear
                             sites. The Design Basis Threat describes the most credible and
                             serious potential adversaries, their tactics, numbers, and
                             capabilities. The purpose of the Design Basis Threat is: (1) to
                             provide a stable basis for security planning and budgeting that is
                             predicated on a predetermined threat estimate which is not
                             dependent on tactical intelligence, (2) to provide a baseline for
                             DOE-wide protection standards for our most attractive nuclear
                             assets, and (3) to provide a standard against which to evaluate the
                             performance of protective forces and the effectiveness of installed
                             security systems.

Verification and Validation Verification is accomplished through the conduct of vulnerability
                            assessments, use of modeling tools, evaluation of training and
                            maintenance records, and table-top exercises of varying degrees of
                            formality. Validation is a process where assumptions reached
                            through assessments, modeling and evaluation activities are tested
                            for validity, the predominant tool utilized being the performance
                            test (ranging from tests of an individual’s skills to a full scale
                            force-on-force exercise).




Page 12                                                                             Definitions
                                                                    IG Report No. DOE/IG-0482

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we nay
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
